No. _____________
IN THE
Supreme Court of the United States

NATALIE MARIE KEEPERS,
Petitioner,
v.
COMMONWEALTH OF VIRGINIA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
SUPREME COURT OF VIRGINIA

PETITION FOR A WRIT OF CERTIORARI

David B. Hargett
Counsel of Record
Virginia State Bar No. 39953
HARGETT LAW, PLC
11545 Nuckols Road, Suite C
Glen Allen, VA 23059
Office: (804) 788-7111
Facsimile: (804) 915-6301
email: dbh@hargettlaw.com

QUESTIONS PRESENTED
1.
Whether a trial court’s refusal to
remove a potential juror who admits she cannot
be certain she can be fair violates the Sixth
Amendment guarantee of an impartial jury?
2.
Whether a two-step interrogation
technique used to undermine the Miranda
warnings combined with a deliberate attempt to
diminish the importance of the warnings
renders the post-warning statements
inadmissible?

i

TABLE OF CONTENTS
QUESTION PRESENTED. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS. . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
1.

Proceedings Below.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

2.

Statement of Facts. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

REASONS FOR GRANTING THE PETITION. . . . . . . . . . . . . . . . 15
I.

When a trial court refuses to remove a juror who cannot
give her assurance that she can remain impartial, the
accused has been denied a fair trial.. . . . . . . . . . . . . . . . . . . . 15
A.

The Sixth Amendment right to a fair trial
should not suffer a double standard. . . . . . . . . . . . . . . . 15

B.

Juror #40 had heard that Keepers entered a
guilty plea to concealing a body and that the
victim’s mother believed that if Keepers was
guilty of concealing the body, she was guilty of
murder. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

ii

C.

II.

Although Juror #40 was later struck by
peremptory challenge, Keepers was denied a fair
trial because at least one other juror who was
challengeable for cause remained on the jury. . . . . . . . 19

The police interrogation tactics in this case involved two
different types of misconduct that combined to render
inadmissible the resulting incriminating statements.. . . . . . 22
A.

The police obtained incriminating statements
after Keepers was no longer free to leave but did
not provide Miranda warnings until the next
day in what was tantamount to a deliberate twostep process. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

B.

Additionally, the police tactics included a
deliberate attempt to diminish the importance of
the warnings when the police couched the
warnings as merely procedural and that her
post-warning statements were no different from
before. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
APPENDIX. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. i
Appendix A: Opinion in the Supreme Court of
Virginia (dated December 9, 2020). . . . . . . . . . . . . . . . . . App. 1
Appendix B: Opinion in the Count of Appeals of
Virginia (dated April 14, 2020). . . . . . . . . . . . . . . . . . . . . App. 2

iii

TABLE OF AUTHORITIES
CASES
Brown v. Illinois, 422 U.S. 590 (1975). . . . . . . . . . . . . . . . . . . . . . . 25
Colorado v. Connelly, 479 U.S. 157 (1986). . . . . . . . . . . . . . . . . . . . 25
Davis v. State, 859 So.2d 465 (2003).. . . . . . . . . . . . . . . . . . . . . . . . 29
Green v. Commonwealth, 262 Va. 105, 546 S.E.2d 446 (2001). . . . 18
Irvin v. Dowd, 366 U.S. 717 (1961). . . . . . . . . . . . . . . . . . . . . . . . . . 15
Keepers v. Commonwealth, 72 Va. App. 17, 840 S.E.2d 575 (2020).. 1
Lego v. Twomey, 404 U.S. 477 (1972). . . . . . . . . . . . . . . . . . . . . . . . 25
Miranda v. Arizona, 384 U.S. 436 (1966). . . . . . . . . . . . . . . . . . . . . 23
Missouri v. Seibert, 542 U.S. 600 (2004).. . . . . . . . . . . . . . . . 23-26, 29
Moran v. Burbine, 475 U.S. 412 (1986). . . . . . . . . . . . . . . . . . . . . . 29
Mu'Min v. Virginia, 500 U.S. 415 (1991). . . . . . . . . . . . . . . . . . . . . 19
Ramirez v. State, 739 So.2d 268 (1999). . . . . . . . . . . . . . . . . . . . . . 29
Rivera v. Illinois, 556 U.S. 148 (2009). . . . . . . . . . . . . . . . . . . . . . . 19
Ross v. State, 45 So. 3d 403 (2010). . . . . . . . . . . . . . . . . . . . . . . . 28-30
United States v. Hargrove, 625 F.3d 170 (4th Cir. 2010). . . . . . . . . 24
United States v. Nunez-Sanchez, 478 F.3d 663 (5th Cir. 2007). . . . 24
United States v. Ollie, 442 F.3d 1135 (8th Cir. 2006). . . . . . . . . . . 26
iv

United States v. Wood, 299 U.S. 123 (1936). . . . . . . . . . . . . . . . . . . 16
Wright v. Commonwealth, 73 Va. 941 (1879). . . . . . . . . . . . . . . . . . 19

v

Petitioner Natalie Marie Keepers respectfully petitions for a writ
of certiorari to review the judgment of the Supreme Court of Virginia.
OPINIONS BELOW
The opinion of the Supreme Court of Virginia (App. 1) is not
reported (dated December 9, 2020 in Virginia Supreme Court Record
No. 200811). The opinion of the Court of Appeals of Virginia (App. 2) is
reported at Keepers v. Commonwealth, 72 Va. App. 17, 840 S.E.2d 575
(2020).
JURISDICTION
On December 9, 2020, the Supreme Court of Virginia entered its
judgment refusing the petition for appeal. This Petition for a Writ of
Certiorari is filed within 150 days of that date, and the jurisdiction of
this Court is invoked pursuant to 28 U.S.C. § 1257(a).
CONSTITUTIONAL PROVISIONS
The Sixth Amendment of the U.S. Constitution states, “In all
criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the
crime shall have been committed, which district shall have been
previously ascertained by law, and to be informed of the nature and

cause of the accusation; to be confronted with the witnesses against
him; to have compulsory process for obtaining witnesses in his favor,
and to have the Assistance of Counsel for his defence.”
The Fifth Amendment of the U.S. Constitution provides, “No
person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a grand jury, except in
cases arising in the land or naval forces, or in the militia, when in
actual service in time of war or public danger; nor shall any person be
subject for the same offense to be twice put in jeopardy of life or limb;
nor shall be compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property, without due process
of law; nor shall private property be taken for public use, without just
compensation.”

2

STATEMENT OF THE CASE
1. Proceedings Below
In Montgomery County, Virginia, Keepers was charged with
accessory before the fact to first degree murder and concealing a dead
body. Keepers entered a plea of guilty to concealing a dead body.
Keepers pled not guilty to accessory before the fact, and a jury trial was
held on September 17-21, 2018, with the Honorable Robert M. D. Turk,
Judge, presiding. At the conclusion of the trial, the jury found Keepers
guilty of the charge of accessory before the fact. The jury set the
sentence at 40 years in prison on the charge of accessory before the
fact. On November 27, 2018, the court imposed the jury sentence.
At trial, the defense moved for the suppression of Keepers’
statements to police based on a two-step interrogation process and a
deliberate attempt to diminish the importance of the Miranda
warnings. The trial court granted the motion in part, but only as to the
statements made during the second part of day one. The trial court
denied the motion with respect to the statements Keepers made on day
two, which included what could be considered a confession by Keepers.

3

(JA 3-14, 15-46, 334-50, 352-92, 468-96, 507-08).
Also at trial, the defense moved to strike for cause Juror #24
because her Facebook, which she shared with her husband, included
the statement that Keepers should be given the "needle." (JA 566-67).
The defense also moved to strike Juror #40 for cause. Juror #40 who
had indicated that she could not be certain that she could be fair. The
trial court denied the motions. JA 565-68, 571-72, 594-98, 613-14.
Keepers raised these issues on direct appeal as claims of
constitutional violations. The Court of Appeals affirmed the trial court
by published opinion. Keepers v. Commonwealth, 72 Va. App. 17, 840
S.E.2d 575 (2020).
Keepers appealed to the Supreme Court of Virginia, but the court
refused the petition for appeal by order dated December 9, 2020.
2.

Statement of Facts

Thirteen-year-old NL went missing on January 27, 2016. A
massive missing-person search ensued. The police followed leads and
arrested David Eisenhauer (“Eisenhauer”), for the abduction of NL.
(See, e.g., JA 149).

4

Law enforcement then focused on Keepers.

All relevant

encounters between Keepers and law enforcement were captured by
either video or audio recordings, from the initial contact around 9:30
a.m. on “day one,” (January 30, 2016), through “day two,” (January 31,
2016). (See, e.g., JA 104, 106, 111).
The trial court denied the motion to suppress statements from
9:30 a.m. until 2:21 p.m. on “day one,” 1-30-16. The trial court granted
the motion to suppress for the second part of “day one,” from 2:21 p.m.
until just past midnight (about 12:45 a.m. on 1-31-16, but still referred
to as “day one”). The trial court denied the motion to suppress all
statements on “day two,” which began around noon on 1-31-16, with
Miranda warnings and various explanations from police as to the
procedural need for such warnings. (JA 352-54).
Interrogation - “Day One”
On January 30, 2016, the police sought to question Keepers as the
supposed alibi witness of Eisenhauer, who had already been arrested
regarding the disappearance of NL. (JA 54-55). Keepers was staying
at her boyfriend’s apartment when three officers knocked “briskly” on

5

the door at around 9:30 a.m. (JA 55-57, 112-13). The three armed
officers identified themselves as law enforcement officers, and informed
Keepers that they would like to take her in for questioning about a
missing girl. (JA 55-58, 107-08, JA 256-82). Keepers agreed to go and
was taken to the Blacksburg Police Department in an FBI vehicle – an
unmarked, black Chevrolet Suburban.

(JA 60, 110, 113-17). The

vehicle was parked in a fenced lot for police vehicles only. Keepers was
taken into the police-only entrance. (JA 61, 117-19). There was a large
police presence at the station that day, involving approximately 50 to
100 officers. (JA 61, 194). From there, Keepers was taken into an
interview room. She was not handcuffed, but one or two officers
remained with her. (JA 62, 64, 239). The door to the interrogation
room remained closed the vast majority of the time. (JA 125).
At the end of questioning on “day one,” Keepers was charged with
accessory after the fact and improper disposal of a body. (JA 85, 12729, 132).
During the “first part” of “day one,” Keepers was questioned about
what she knew “about the missing girl” and whether Eisenhauer

6

“mentioned anything about the missing girl.” (JA 239). The officers
informed Keepers that the missing girl was 13 years old and that
Eisenhauer had “been arrested.” (JA 137, 239).
The officers told Keepers: “[W]hat we need to know from you is
absolutely 100 percent the truth of what you know of [Eisenhauer] and
with this girl. Like I told you in the very beginning, we're not trying to
get you involved in anything. We're not trying to get you in trouble or
anything like that at all.” (JA 121-22, 138, 239).
The officers admittedly knew Keepers was not being truthful.
They thought she had relevant information about the disappearance of
the girl, and they confronted her about it. They demanded truthfulness
from her. (JA 136.1-36.2, 147-48, 155, 239). During the interrogation,
Keepers permitted the officers to copy the contents of her phone which
revealed certain messages between her and Eisenhauer. (JA 155-56).
The officers asked questions whether she was aware of
Eisenhauer’s plan to kill NL, which would implicate Keepers as an
accessary before the fact. (JA 146-152). The officers had Keepers write
out a statement. (See, e.g., JA 152-53). Before the killing, Keepers

7

stated that Eisenhauer talked about getting rid of the victim, and
Keepers told him not to kill her. (JA 239).
Interrogation - “Day Two”
At the end of “day one,” Keepers was charged with accessory after
the fact and improper disposal of the body, and she was held overnight
in the jail without a bond. Around noon on “day two,” she was brought
to another interview room, and at that point, she was handcuffed and
shackled. (JA 87, 168). According to Detective Hite:
Up until this point she had denied ever being actually
present for the murder itself. So we wanted to question her
on that to see if that was still the case or if she had had any
other additional information to provide on that fact.
(JA 102).
From the onset on “day two,” Keepers asked if they found the
body yet. At that point, Detective Hite made the following statements
along with his recitation of the preprinted Miranda warnings form:
Well, that's what we wanted to talk to you about – to make
sure we have everything ironed out. Really nothing new.
We just want to pick up where we left off and go over some
stuff with you.
***

8

The only issue is clearly we aren't here to arrest you, charge
you, or anything like that, but, obviously, at least you're in
the custody of the jail just because you’re here – you get the
cool bracelets and all that kind of stuff. So, with that, there
is procedure we need to go over. I have to basically read you
your rights.
***
It just says that you're cool talking to us still, and that, you
know, if you change your mind at any time, then you don't
have to, you know, that kind of stuff. But like I said, it's
more of a procedural issue because you’re in their custody.
It really doesn't change anything with us.
***
Natalie, again, this is just procedural stuff. What we’ll do is
just read you read this and then get you to check it over and
get you to fill out and sign if you're still okay with that.
And, you know, it's a little less glamorous then what you
hear on TV, but it does kind of sound the same.
Basically what it says is, You have a right to remain silent
and not make any statements at all nor incriminate myself
in any manner whatsoever -- this is me talking like I'm
reading it, okay?
But anything I say can and will be used in court or course
of law for the offense or offenses concerning any statements
is hereinafter made; that I can have a lawyer of my choice
to be present with me to advise me before any -- during any
time I will answer any questions or make any statements.
Mouthful.

9

That if I cannot afford to hire a lawyer, I can request and
receive an appointment of a lawyer by proper authority
without cost or charge to me to be present with me, to
advise me before and during any time I answer any
questions or make any statements; that I can refuse to
answer any questions or make any statements at any time
I choose; that no law enforcement officer can prompt me
what to say in any statement or write it for me unless I
choose over to do so.
It just has some other stuff here that you're more than
welcome to read over, just procedural stuff for us, and I
don't -- are you going to let me know when you need to -create the right side or whatever, see if you can do that. I
forgot you were leftie. My dad is left handed. It's kind of
cool.
***
You just need to sign that right now. What we'll do is, once
we're all done today . . . guess we'll just fill out what time
we were done, so the only thing, if you would just sign right
there that you don't mind talking to us.
(JA 161-62, 164-66, 168-71, 239).
After the Miranda form was signed, the officers transported
Keepers to where she was with Eisenhauer to gather information about
the place of the killing and other locations. (JA 91-93, 172-74).
Although Keepers had previously suggested that she was aware
that Eisenhauer intended to kill NL, that the killing was premeditated,

10

and Eisenhauer had discussed with her various ways to accomplish the
killing, during the interrogation on “day two,” Keepers directly stated
that “she was involved in [the] preplanning of the murder itself.” (JA
103).
Commonwealth’s Evidence Presented at Trial
Eisenhauer killed NL, and Keepers helped Eisenhauer after the
fact dispose of the body, a charge to which Keepers entered a guilty
plea. The evidence against Keepers regarding the charge for which she
was on trial included all of the physical evidence associated with the
moving of the body and cleaning up afterward. (See, e.g., JA 636-37).
As to whether Keepers was guilty of accessary before the fact, the
additional evidence against her included surveillance video of her and
Eisenhauer together at Walmart and Cookout a short time before NL
was murdered. At the Walmart, Eisenhauer purchased a shovel. (JA
637-42). In addition, there were numerous Kik messages between
Eisenhauer and Keepers before the murder involving discussions of
possible ways NL could be killed. (JA 640-41, 681-87, 767, 836-40, 84756)

11

A large part of the evidence against Keepers was her inculpatory
statements to police during the interrogation over the course of two
days, including her “full” confession on “day two” that she helped
Eisenhauer plan the killing. (See, e.g., JA 639-41, 686-704).
Defense Evidence Presented at Trial
The defense presented three witnesses: An expert on the
reliability of the statements Keepers made to police, (JA 861, 895-901);
an expert on police interrogation tactics, (JA 910-11, 915-929); and,
another person to whom Eisenhauer discussed his intent to kill NL, (JA
936-40).
Jury Selection
During jury selection, the defense moved to strike for cause
Jurors #24 and #40. The trial court denied the motions. (JA 571-72,
613-14). Juror #24 remained on the jury, and Juror #40 was removed
by peremptory strike. (JA 624-25).
Juror #24 was confronted with various Facebook posts on her
account. (JA 566). Those posts and the "liking" of various articles
about the case included the statement from her account that Keepers

12

should be given the "needle." Juror #24 denied making that comment
and stated that her Facebook account is jointly held by her husband.
When asked whether she agreed with her husband, she stated,
"No, I don't, on a lot of stuff I don't." (JA 567). When asked, "after
seeing that your husband has said that, would you have any difficulty
finding Ms. Keepers not guilty," she stated, "I think you have to listen
to all the evidence and hear all the facts before you making a judgment
against anybody. That's my opinion." (JA 567).
The defense argued at trial that the Facebook "evidence is so
damning," the juror should be struck for cause. (JA 571). The court
denied the motion to strike for cause. (JA 572).
Juror #40 initially responded to the court’s questions by
indicating that she had heard about the case and that information
would affect her partiality.

(JA 574-76).

When questioned

individually, Juror #40 said she had seen news the night before and
something on Facebook that Keepers “had pled guilty or took a deal or
something to concealing.” (JA 594-95). She had read “that the victim’s
mother had made a statement that she felt that since she had pled

13

guilty to concealing that she felt she was guilty of being part of the
murder.” (JA 595).
When asked whether she had an opinion as to whether Keepers
was guilty or innocent of the crime, she responded, “I guess yes, I
probably do.” (JA 596). At that point she was asked whether her
opinion was so strong that no matter what she was going to stick with
that opinion, and she responded, “No.” (JA 596). She stated, “I think
I could,” when asked if she could base her decision on the law and the
evidence. (JA 596-97).
Juror #40 was asked why she hesitated, and she stated, “I don’t
know what the evidence is going to be” or “what the law is yet that
could cause me to reconsider what I heard.” (JA 597). She stated, “I
think I can be fair.” (JA 598). Her last statement was as follows:
I’ve not already made up my mind that, you know, the
verdict is guilty, but I also cannot sit here and honestly say
that what I heard is not going to bias me.
(JA 598).
The court denied the motion and stated, “I think she was pretty
honest. She said she could be fair and impartial.” (JA 614).

14

REASONS FOR GRANTING THE PETITION
I.

When a trial court refuses to remove a juror who cannot
give her assurance that she can remain impartial, the
accused has been denied a fair trial.
A.

The Sixth Amendment right to a fair trial should not
suffer a double standard.

The Sixth Amendment guarantees a right to an impartial jury.
In the age of the internet and the proliferation of social media where
many people get their news and share views, now more often than ever
a potential juror will express not only knowledge of the case, but also
some type of bias against the accused. This happens nearly every time
when a matter has attracted almost any level of “media” attention.
This Court has consistently held that the ultimate question is
whether such a potential juror can set aside the biased opinion and
decide the case solely based on evidence presented in court. “It is
sufficient if the juror can lay aside his impression or opinion and render
a verdict based on the evidence presented in court.” Irvin v. Dowd, 366
U.S. 717, 723 (1961). Many times, this requires a court to accept the
juror’s own assessment of his or her bias, and courts usually will take
the word of the juror. “Impartiality is not a technical conception. It is
15

a state of mind.” United States v. Wood, 299 U.S. 123, 145-146 (1936).
However, when a juror says she thinks she can be fair but “cannot
honestly say that what [she] heard is not going to bias [her],” reversal
is required.
If this Court’s jurisprudence calls for believing a juror when she
promises she can set aside what she heard, due process requires that
the opposite be true: a juror who cannot promise that she can be
impartial must be struck for cause.
B.

Juror #40 had heard that Keepers entered a guilty
plea to concealing a body and that the victim’s
mother believed that if Keepers was guilty of
concealing the body, she was guilty of murder.

Prior to trial, Keepers entered a plea of guilty to concealing a
body after Eisenhauer had killed the victim. However, Keepers entered
a plea of not guilty to accessory before the fact to murder, and she
proceeded to trial.
During jury selection, Juror #40 initially indicated that she had
heard about the case and that the information would affect her
partiality. During individual voir dire, Juror #40 indicated that she
had seen the news reports or Facebook posts that Keepers “had pled
16

guilty or took a deal or something to concealing” a dead body. (JA 59495). Juror #40 also had read that the victim’s mother “felt that since
[Keepers] had pled guilty to concealing . . . [Keepers] was guilty of
being part of the murder.” (JA 595).
When asked whether she had an opinion as to whether Keepers
was guilty or innocent of the crime, she responded, “I guess yes, I
probably do.” (JA 596).
Juror #40 was asked whether her opinion was so strong that no
matter what she was going to stick with that opinion. She responded,
“No.” (JA 596).

She was asked if she could base her decision on the

law and the evidence, and she stated, “I think I could.” (JA 596-97).
When asked why she hesitated, Juror #40 said:
Well, I guess because I don't know what the evidence is
going to be, you know. I mean I have heard an opinion
already, but I don't know what the evidence is going to be
presented to cause me to, or I don't even really know what
the law is yet that would cause me to reconsider what I
heard.
Juror #40 continued and stated, “I want to be fair, so I guess
that is one of the reasons I hesitate.” Then Juror #40 put it all in
perspective:
17

If they present to me, I mean I think I can listen to the
[j]udge's instructions and listen to the evidence. I've not
already made up my mind that, you know, the verdict is
guilty, but I also cannot sit here and honestly say that what
I heard is not going to bias me. Does that make any sense?
The trial court denied the motion to strike for cause after stating,
“I think she was pretty honest.

She said she could be fair and

impartial.” This ruling was plainly erroneous.
Juror #40 clearly stated that she could not say that what she
already “heard is not going to bias” her. Thus, under the constitution
as well as under Virginia law, the juror should have been struck for
cause. See, e.g., Green v. Commonwealth, 262 Va. 105, 546 S.E.2d 446,
452 (2001) (reversing a capital murder conviction and the sentence of
death where the trial court committed manifest error by seating two
jurors who were not impartial).
Thus, in light of the facts and circumstances, there was a
reasonable doubt whether Juror #40 was free from partiality and
prejudice, and it follows that she should have been struck for cause.
[I]f the juror has made up and expressed a decided opinion
as to the guilt or innocence of the accused, he is
incompetent; and it does not matter whether the opinion be
founded on conversations with the witnesses or upon mere
18

hearsay or rumor. It is sufficient that the opinion is decided,
and has been expressed.
Wright v. Commonwealth, 73 Va. 941, 943 (1879).
This case asks the question whether Justice Marshall was right
that the constitutional guarantee of a right to an impartial jury has
been turned “into a hollow formality.” Mu'Min v. Virginia, 500 U.S.
415, 433 (1991) (Marshall, J., dissenting). When a prospective juror
has formed an opinion that an accused is guilty but can set that opinion
aside and decide the case on the evidence, that juror can stay. It must
also be true that a juror who cannot be sure she can set that opinion
aside must be removed to fulfill the promise of the Sixth Amendment.
C.

Although Juror #40 was later struck by peremptory
challenge, Keepers was denied a fair trial because at
least one other juror who was challengeable for cause
remained on the jury.

This Court has more recently decided the issue of whether the
loss of a peremptory strike automatically requires reversal.
If a defendant is tried before a qualified jury composed of
individuals not challengeable for cause, the loss of a
peremptory challenge due to a state court's good-faith error
is not a matter of federal constitutional concern.
Rivera v. Illinois, 556 U.S. 148, 157 (2009).
19

In this case, the defense faced a Cornelian dilemma. Juror #40
admitted that she had formed an opinion that Keepers was guilty of
murder. Juror #40 indicated her opinion was not so strong that she
would stick with that opinion no matter what, and she wanted to be
fair. However, Juror #40 also stated that she could not promise that
what she heard was not going to “bias” her against the accused.
During jury selection, several people had heard about the case,
including – for example – Juror #24 whose Facebook page that she and
her husband jointly maintained “liked” a story that Keepers had been
denied bond.
Either Juror #24 or her husband added a comment to the
Facebook post, “Great. Now give her the needle.” Although Juror #24
claimed that she did not write that comment and does not always agree
with her husband, there was nothing to indicate that Juror #24
disagreed that Keepers deserved to be executed, and Juror #24 clearly
did not disavow the comment about giving Keepers “the needle.” The
motion to strike Juror #24 for cause was denied.

20

Accordingly, at the end of the jury selection process, the defense
used the peremptory strikes carefully, and it is reasonable to conclude
that by removing Juror #40 (which should not have been necessary),
the defense had to allow Juror #24 to remain on the jury despite the
serious concerns regarding the reference to lethal injection.
Therefore, this case also allows this Court to answer the question
left open by Rivera: if a defendant is forced to use a peremptory
challenge to remove a juror and another juror who was challengeable
for cause remains on the jury, is the Sixth Amendment violated.
Keepers asserts that this question should be answered in the
affirmative.

21

II.

The police interrogation tactics in this case involved two
different types of misconduct that combined to render
inadmissible the resulting incriminating statements.
Keepers was taken by three law enforcement officers to the police

station for questioning regarding a missing girl. The group traveled in
an FBI vehicle to the gated, police-only parking lot behind the police
station, and Keepers was taken through the police-only entrance to an
interrogation room. She was questioned about her knowledge about
the missing girl for approximately 28 hours over the course of two days.
During the questioning on the first day, it became clear that
Keepers participated in the disposal of the body. The trial court ruled
that the remainder of the interrogation on the second half of “day one”
must be suppressed because no Miranda warnings were given and no
reasonable person would believe that she was free to leave. During the
remainder of the evening on “day one,” Keepers made additional
inculpatory statements as to her involvement, including her actions
and knowledge before the fact.
Keepers was held in jail overnight, and the next day the officers
continued the interrogation and gave Keepers warnings consistent with

22

Miranda but with statements that such warnings were merely
procedural and other statements such as “this is nothing new,”
demonstrating that the police were going to go over on “day two” what
was covered on “day one.”
The trial court denied the motion to suppress as to the statements
made the first part of “day one” and all of “day two.” However, the
statements made on “day two” also should have been suppressed.
A.

The police obtained incriminating statements after
Keepers was no longer free to leave but did not
provide Miranda warnings until the next day in what
was tantamount to a deliberate two-step process.

The post-Miranda warning statements were the product of a
two-step interrogation strategy designed to circumvent Miranda, a
tactic specifically proscribed in Missouri v. Seibert, 542 U.S. 600 (2004)
(plurality opinion). "No person . . . shall be compelled in any criminal
case to be a witness against himself." U.S. Const. amend. V.
As a safeguard for this constitutional guarantee, this Court has
required law enforcement to inform individuals who are in custody of
their Fifth Amendment rights prior to interrogation. Miranda v.
Arizona, 384 U.S. 436, 444 (1966). Without a Miranda warning,
23

evidence obtained from the interrogation is generally inadmissible. See
United States v. Hargrove, 625 F.3d 170, 177 (4th Cir. 2010).
In ruling that the interrogation was in custody as of
approximately 2:21 p.m. on “day one,” the trial court granted the
motion to suppress the remainder of the interrogation for those
additional ten hours. Then, Keepers was charged with an accessory
after the fact and the improper disposal or concealment of a body, and
she spent the remainder of the night in the jail.
On the second day, although Miranda warnings were given at
that time, Keepers’ statements should have been suppressed under the
Fifth Amendment.

In Missouri v. Seibert, 542 U.S. 600 (2004)

(Kennedy, J., concurring in judgment), the Supreme Court "refused to
allow the post-warning confession where a 'two-step interrogation
technique was used in a calculated way to undermine the Miranda
warning.'" United States v. Nunez-Sanchez, 478 F.3d 663, 668 (5th Cir.
2007) (quoting Seibert, 542 U.S. at 622).
This Court explained that "[t]he use of such a strategy involves
an interrogator "rel[ying] on the defendant's prewarning statement to

24

obtain the postwarning statement used against her at trial . . . [by]
confront[ing] the defendant with her inadmissible prewarning
statements and push[ing] her to acknowledge them." Seibert, 542 U.S.
at 621.
The government bears the burden of demonstrating the
admissibility of a confession. Brown v. Illinois, 422 U.S. 590, 603-04
(1975). This requires the government to prove by a preponderance of
the evidence the defendant's Miranda waiver and the voluntariness of
the confession. Seibert, 542 U.S. at 608 n.1 (citing Colorado v. Connelly,
479 U.S. 157, 169 (1986), and Lego v. Twomey, 404 U.S. 477, 489
(1972)).
Whether the police deliberately used a two-step interrogation
method designed to circumvent Miranda is a factual inquiry that bears
upon the admissibility of the defendant's confession. Accordingly,
where the defendant's confession was obtained during a sequential
interrogation with Miranda warnings delivered midstream, the
government bears the burden of proving the police did not deliberately
withhold the warnings until after they had an initial inculpatory

25

statement in hand. See United States v. Ollie, 442 F.3d 1135, 1142-43
(8th Cir. 2006) (finding that the government must prove lack of
deliberateness by a preponderance of the evidence).
The factors to be considered – in the totality of these
circumstances -- to determine whether Miranda warnings are effective
are:
[T]he completeness and detail of the questions and answers
in the first round of interrogation, the overlapping content
of the two statements, the timing and setting of the first
and the second, the continuity of police personnel, and the
degree to which the interrogator's questions treated the
second round as continuous with the first.
Missouri v. Seibert, 542 U.S. at 615.
In this matter, Keepers gave a detailed account of the events
surrounding the death of NL, her involvement both before and after the
homicide, and Eisenhauer's involvement. The content of both her
pre-warning and post-warning statements to the police were
remarkably similar. The officers interrogated Keepers on both days
regarding the same facts underlying both the accessory before the fact
and the improper disposal charge. The following exchange occurred
immediately before the officer read Keepers the Miranda warnings:
26

[W]e wanted to talk to you about —to make sure we have
everything ironed out. Really nothing new. We just want to
pick up where we left off and go over some stuff with you.
***
We just want to go slow again. . . .
The only issue is clearly we aren't here to arrest you, charge
you, or anything like that, but, obviously, at least you're in
the custody of the jail just because you're here – you get the
cool bracelets and all that kind of stuff. So, with that, there
is procedure we need to go over. I have to basically read you
your rights.
Because of these factors, the Miranda warnings supplied by the
officers were not effective. As in Seibert, "[t]he unwarned interrogation
was conducted in the station house, and the questioning was
systematic, exhaustive, and managed with psychological skill." Id. at
616. Very little, if anything, was left on the table afterward.
Moreover, the officers did not advise Keepers that her former
statement could not be used against her. Instead, this was a mere
continuation

of

the

earlier

questions

and

answers.

"These

circumstances must be seen as challenging the comprehensibility and
efficacy of the Miranda warnings to the point that a reasonable person
in the suspect's shoes would not have understood them to convey a

27

message that she retained a choice about continuing to talk." Id. at 617.
B.

Additionally, the police tactics included a deliberate
attempt to diminish the importance of the warnings
when the police couched the warnings as merely
procedural and that her post-warning statements
were no different from before.

The officers further diluted Keepers’ Miranda rights by
downplaying their significance. In this matter, Detective Hite handed
the written Miranda warnings to Keepers on “day two,” along with the
following statements:
-

We aren’t here to charge you.

-

This is just procedure we need to go over.

-

It’s more of a procedural issue because you are in their
custody.

-

It really doesn’t change anything with us.

-

Again, this is procedural stuff I’ll give you to do.

And while Keepers was filling out and signing the document, the
officer stated one more time, “This is just procedural stuff for us . . . .”
In Ross v. State, 45 So. 3d 403, 428 (2010), the Supreme Court of
Florida provided an excellent synthesis of the current United States

28

Supreme Court framework:
While a "careful and thorough administration of Miranda
warnings serves to cure the condition that made an
unwarned statement inadmissible," where police minimize
and downplay the significance of the warnings, the very
purpose of Miranda is undermined.
As Justice Kennedy explained in Seibert if a deliberate
two-step strategy is employed, then the postwarning
statements must be excluded unless curative measures are
taken that will "ensure that a reasonable person in the
suspect's situation would understand the import and effect
of the Miranda warning and of the Miranda waiver." As the
Seibert plurality similarly stated, when Miranda warnings
are inserted in the midst of coordinated and continuing
interrogation, "they are likely to mislead and 'depriv[e] a
[suspect] of knowledge essential to his ability to understand
the nature of his rights and the consequences of abandoning
them.'"
Id. at 428 (citing Davis v. State, 859 So.2d 465, 471 (2003); Ramirez v.
State, 739 So.2d 268, 576 (1999); Missouri v. Seibert, 542 U.S. 600, 61314, 622 (2004); Moran v. Burbine, 475 U.S. 412, 424 (1986)).
The facts of Ross are remarkably similar to the facts in the case
at bar. In Ross, the detectives minimized the significance of the
suspect's Miranda rights by asserting they were "only a matter of
procedure," the detective lulled the suspect into a false sense of security
by asserting that he was not arresting him at that time, and the
29

suspect was reminded of his prior admissions, implying that exercising
the right to remain silent would be futile. Ross, 45 So.3d at 428.
Based on these factors, the Ross court held that the officers
“minimized and downplayed the significance of the warnings” to the
point they undermined the effectiveness of Miranda. Id. at 431. The
same thing happened in this case.
Moreover, the police tactics used – including undue pressure and
promises of leniency – further demonstrated the post-warning
statements should be suppressed. The police tactics also included a
deliberate attempt to diminish the importance of the warnings when
the police couched the warnings as merely procedural and that her
post-warning statements were no different than previous statements.
The interrogation techniques employed by the officers in this
matter

were

inherently

coercive.

Detective

Hite

utilized

a

conglomeration of interrogation techniques he had learned, combined
with his experience, to gain information and a confession from Keepers.
The techniques used by Detective Hite are more likely to produce
more false confessions than alternative techniques. The psychological

30

pressure on Keepers was tremendous throughout the two days. On “day
one,” the officers began the interrogation by telling her she had to be
truthful, that this is serious, that Eisenhauer has been arrested, that
the police were not trying to get her involved or get her in trouble, or
anything like that at all.

The interrogation went on for hours,

including the second part of “day one” which was suppressed but should
be considered in the totality of the circumstances. Throughout her
encounter with the officers, the officers made promises of leniency if
Keepers continued to be cooperative and only if she gave (what the
police characterized as) a “full” statement. More than a dozen of
promises of leniency were made by the officers, including statements
to the effect of:
-

We will “go to bat” with our bosses and the prosecutor if you
continue to be honest and cooperative.

-

If you are 100% honest, in exchange for that, for telling us
what we want to know, we will get this thing cleaned up.

-

You will help yourself.

-

By telling us what we want to hear, the criminal
responsibility is either reduced or negated.

31

Accordingly, this Court should conclude that the post-Miranda
warning statements were the product of a two-step interrogation
strategy designed to circumvent Miranda, and when combined with
various attempts to diminish the importance of Miranda, a Fifth
Amendment violation has occurred.
CONCLUSION
The petition for writ of certiorari should be granted.
Respectfully Submitted.
NATALIE MARIE KEEPERS

By: ________________________
Counsel
David B. Hargett, Esquire
Counsel for Petitioner
Virginia State Bar No. 39953
HARGETT LAW, PLC
11545 Nuckols Road, Suite C
Glen Allen, VA 23059
Office: (804) 788-7111
Facsimile: (804) 915-6301
email: dbh@hargettlaw.com
May 10, 2021

32

